     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
                                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278

May 18, 2011



Report Number: A-02-11-01005

Ms. Anne Bockhoff Dalton
Vice President
National Heritage Insurance Company, Corp.
75 Sgt. William B. Terry Drive
Hingham, MA 02043

Dear Ms. Bockhoff Dalton:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Payments to Arimed Orthotics and
Prosthetics, Inc., for Lower Limb Prosthetic Services for the Period January 1, 2008, Through
December 31, 2009. We will forward a copy of this report to the HHS action official noted on
the following page.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-02-11-01005 in all correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Anne Bockhoff Dalton


HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106

cc:
Mr. Steven Mirones
President, Arimed Orthotics and Prosthetics, Inc.
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




 REVIEW OF MEDICARE PAYMENTS
   TO ARIMED ORTHOTICS AND
     PROSTHETICS, INC., FOR
LOWER LIMB PROSTHETIC SERVICES
FOR THE PERIOD JANUARY 1, 2008,
  THROUGH DECEMBER 31, 2009



                       Daniel R. Levinson
                        Inspector General

                           May 2011
                         A-02-11-01005
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       INTRODUCTION

BACKGROUND

Medicare Program

The Medicare program, established under Title XVIII of the Social Security Act (the Act) in
1965, provides health insurance to people age 65 and over, people with disabilities, and people
with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS) administers
the Medicare program.

Durable Medical Equipment, Prosthetics, Orthotics, and Supplies

Pursuant to sections 1832(a)(2)(I) and 1861(n) of the Act, Medicare Part B provides for the
coverage of durable medical equipment, prosthetics, orthotics, and supplies (DMEPOS).
Prosthetic devices replace all or part of a body organ. Lower limb prosthetics include foot,
ankle, or shin replacements, and associated parts and supplies (e.g., socks and shoe inserts).

Pursuant to section 1834(a)(11)(B) of the Act, payment for certain DME supplies may be made
only if a physician has communicated to the supplier, before delivery of the item, a written order
for the item. In addition, pursuant to 42 CFR § 424.57(c) (12), payment for DME supplies may
be made only if the supplier maintains proof of delivery of the items to the beneficiary. The
regulations also require that the supplier document that it provided the beneficiary with
necessary information and instructions on how to use the items safely and effectively.

National Heritage Insurance Company

CMS contracts with durable medical equipment Medicare administrative contractors (DME
MAC) to process and pay Medicare Part B claims for DMEPOS. The DME MAC that covers
New York State is National Heritage Insurance Company. Under Medicare Part B, the DME
MAC reimburses DMEPOS suppliers for prosthetic services based on a fee schedule.

Arimed Orthotics and Prosthetics, Inc.

Arimed Orthotics and Prosthetics, Inc., (Arimed) is a DMEPOS supplier with offices in New
York City. For calendar years (CY) 2008 and 2009, Arimed received Medicare reimbursement
totaling $399,124 for lower limb prosthetic services.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare payments to Arimed for lower limb prosthetic
services were correct.




                                                 1
Scope

Our review covered 644 claims, totaling $399,124, for which Arimed received Medicare
reimbursement for services during the period CYs 2008 and 2009.

We did not assess the overall internal control structure of Arimed. Rather, we limited our review
of internal controls to those applicable to the objective of our audit.

We performed our fieldwork at Arimed’s offices in Brooklyn, New York, and at various
physicians’ offices, and beneficiary residences throughout New York City from November 2010
through March 2011.

Methodology

To accomplish our objective, we:

•   reviewed applicable Medicare laws and regulations;

•   interviewed National Heritage Insurance Company officials to gain an understanding of the
    procedures the DME MAC has in place to prevent inappropriate payments for lower limb
    prosthetic services;

•   obtained from CMS’s National Claims History File a sampling frame of 644 claims for lower
    limb prosthetics services, totaling $399,124, for which Arimed received reimbursement for
    services during CYs 2008 and 2009; and

•   selected a simple random sample of 100 claims from the sampling frame of 644 claims, for
    each of which we:

        o reviewed Arimed’s files to determine if a physician had communicated with Arimed,
          before delivery of the item, a written order for the item;

        o reviewed Arimed’s documentation of proof of delivery of the item(s);

        o interviewed the referring physician to verify that the physician provided a written
          order for the item(s) to Arimed; and

        o interviewed the beneficiary, if available, to determine whether the beneficiary
          received the item(s) claimed. 1




1
 Due to various reasons (e.g., no current contact information or the beneficiary was deceased), we were only able to
visit 21 of the 37 beneficiaries in our sample.

                                                         2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

Medicare payments to Arimed for lower limb prosthetic services were correct. As a result, this
report contains no recommendations.




                                               3
